PROOF OF SERVICE FOR RESUBMISSION
I am over the age of 18 years old and a resident of Los Angeles California located in
Los Angeles County, a citizen of the United States of America and Civil Surgeon for
the United States Government Departments of Defense? and Immigration and
Naturalization Services. On November 14, 2020 for purpose of filing into the
record and distributing to the Justices of the United States Supreme Court, each of
them for “Judicial Review” and Hearing on Petition For Writ of Certiorari [Sup. Ct.
Case No. 20'67], I personally resubmitted returned document entitled “Petition for
Rehearing on Writ of Certiorari [pursuant to FCRP 60(b)(4); Mandatory Relief From
“Void Rulings” Due to Judicial Fraud? Destruction of Court Records? and Labor code
5953 Violations” [with attached copy of Corrected Proof of Service dated 10/29/20
stamped received by U.S Supreme Court Clerk on November 3, 2020] via U.S
overnight mail on?
Clerk, United States Supreme Court
One First Street
Washington D.C 20543
RE? Overbilling and Causation
As per Clerk’s Request I have also enclosed a check [for $200.00] and requested Word
Count Certificate. The $200.00 fee is an overcharge because the Petition For
Rehearing on Petition For Writ of Certiorari was filed due to Clerk’s err. The
Petition For Writ of Certiorari was “denied” on 10/5/20 without the Notice of Errs
and Correction in the file because it was “lost in the mail building”. Additionally,
Petition For Writ of Certiorari [involving WCAB ruling] in err was not submitted to
the Justices for “Judicial Review” as ordered by federal court judge Percy Anderson.
A hearing and decision is required by the Justices pursuant to United States
Supreme Court’s ruling in Feldman ? and labor code section 5953 because WCAB
judge rulings are final [and therefore cannot be “denied”] without Judicial Review
and hearing by United Sates Supreme Court. It is anticipated that the requested
$200.00 filing fee will be returned for the stated reasons. I swear under penalty of
perjury under the laws of the United States of America that to the best of my
knowledge the above statements are true and correctly stated.
Executed at Los Angeles California on this the 14th day of November in the year
2020 of THE/LORD.
Delaney Smith Pharm.D.^M.D.
PETITIONER AND CIVIL SURGEON FOR THE UNITED STATES
DEPARTMENT OF DEFENSE AND IMMIGRATION AND NATURALIZATION SERVICES
Page 1 of 3
% fcoTiciZ

fL&r •w tx r-s
Pz/LS°sv'lily

T£>
2f

>0

W OVKtrjje y

j.,., Cf~ Jt-tes
('-ARt

n

/!f* Li

o

i

J A.

33J (bj 4 3$(b) P'.'w-i5" is RV/ C li-

E> 'i r t •?

Hi:iji c £ iZiSSv/i *n,TY

tjjj

$

Service List
Honorable Justice Clarence Thomas
United States Supreme Court
1 First Street N.E.
Washington D.C 20543
Honorable Justice Sotomayor
United States Supreme Court
1 First Street N.E.
Washington D.C.
20543
Honorable United States Senator Kamala Harris
Member, Senate Judicial Oversight Committee
5011 Street Suite # 7-800
Sacramento, California 95814
Honorable Congresswoman Karen Bass
U.S. House of Representatives
4929 Wilshire Boulevard #650
Los Angeles, CA 90010
Honorable Congressman John Garamendi
U.S. House of Representatives
412 G Street
Davis, California 95616
Honorable State Senator Holly Mitchell
State of California — Senator
State Capitol Room #5050
Sacramento, California 95816
Honorable U.S. Solicitor General Noel Francisco
950 Pennsylvania Avenue N.W.
Washington, D.C. 20530-0001
isieie

[NOTICED]

pursuant to Supreme Court Rule 29 4(a) regarding Defendant/ Respondents 9th Circuit /
Chief judge Thomas and “en banc panel”; and Rule 29 pursuant to 28 U.S.C. sec. 2403(b)
State of California Attorney General was previously Noticed that the constitutionality of
SBX 211 is questioned [because it contravenes federal statute 28 USC sec 455(a)(b)(4)
disclosure requirements, when county officials pay money to state and district court judges
Page 2 of 3

./

[m cases that contain federal claims] because it contains no clause for financial disclosure
or required “self recusal” which has corrupted both state and federal 9th Circuit district
courts. To date no Appearance or Notice of Waiver has been filed at United States Supreme
Court by or for named Ninth Circuit Appellate Court of Appeals judges/ Respondents who
in err returned Notice of Wavier to Petitioner in Err.
Chief Justice Thomas and “en banc Panel”
Ninth Circuit Court of Appeals
do Clerk U.S. Court of Appeals (9th Circuit)
95 Seventh Street
P.O. Box 19339
Respondents/ Defendants
San Francisco CA 94119*3939

Raymond Fortner Esq. Chief Los Angeles County Counsel
Mary Reyna Esq. County Counsel and Chief Counsel LA Comity MTA
Angela Nossett M.D.
Respondent / Defendants
Clayton Averbuck Esq. Jennifer Gysler Esq. Counsel for Defendants
And Respondent/Defendants
Monroy Averbuck and Gysler Lawfirm
32123 Lindero Canyon Road
Westlake Village CA 91361

President Derrick Johnson
[Courtesy Copy]
NAACP Headquarters
4805 Mt. Hope Drive
Baltimore Maryland 21215
Howard University Law Review
c/o Editor Ashlyne Polynice
2900 Van Ness Street N.W.
Washington, D.C. 20008

Page 3 of 3

[Courtesy Copy]

